                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
                                                                                                    ,
                                              CLOSEOUT MEMORANDUM

 Case Number: I04100036                                                                       Page> 1 of 1


                                                                                                    I


         National Science Foundation, OIG opened this investigation based on results from a proactive
         Participant Support review. The grantee' initially reported Participant Support Costs totaled
         $142,462.30 for the NSF grant.2 Our review ofsuppdrting documents provided by the grantee
         found that some Participant Support Costs had been used for supplies, printing, rental equipment,
         and employee travel. The review also found that one invoice, totaling $635.04, was paid twice
         by the grantee.

         After being asked to provide justification for questioned Participant Support Costs, the grantee
         returned $635.04 to NSF and moved $2 1,181.10 from Participant Support Costs to Other Grant
         Expenditures. The grantee revised the award expenditures as follows:

                                               Budget                  Actual Expenditures
         Total Award                           $                       $1,325,317.25
         Participant Support Costs             $ 152,800               $ 120,656.16
         Other Grant Expenditures              $1,286,250              $1,204,661.09

         The grantee also initiated training for the departmental staff so that future Participant Support
         and Other Grant Expenditures are accounted for appropriately.

         Since the grantee properly accounted for all grant expenditures and returned $635,04, all issues
         have been resolved.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)


                                                                                                        -
